Inspections Report I-98-02
U. S. DEPARTMENT OF JUSTICE
OFFICE OF THE INSPECTOR GENERAL
INSPECTIONS DIVISION
CONTROLS OVER CERTIFICATES OF NATURALIZATION (PHASE 1)
Report Number I-98-02
February 1998
TABLE OF CONTENTS
Transmittal Memorandum
Introduction
Background
Inspection Methodology
Results Of The Inspection
Periodic Inventories by Disinterested Officials Were Not Conducted
The Forms Centers Had No Assurance That Field Personnel Requesting
N-550s Were Authorized To Make Such Requests
Confirmation of Shipments to Field Offices and Acknowledgement of
Receipt of Certificates Were Not Always Received or Reconciled5
Automated Record Keeping and Inventory Controls Need Strengthening
Physical Security Should be Improved
Recommendations
Appendix I Immigration and Naturalization Service Response to Draft
Report
Appendix II Office of the Inspector General's Analysis of Management's
Response
February 19, 1998
MEMORANDUM FOR DORIS MEISSNER
COMMISSIONER
IMMIGRATION AND NATURALIZATION SERVICE
FROM:
MICHAEL R. BROMWICH
INSPECTOR GENERAL
SUBJECT:            Inspection
of the Controls Over Certificates of
Naturalization (Phase I), Report Number I-98-02
Attached is our final report on the subject inspection.
Our objective was to assess the adequacy of controls over Certificates of
Naturalization (N-550) from the point of receipt by the Immigration and Naturalization
Service (INS) to issuance of these controlled documents to qualified aliens. We examined
INS' two forms centers, the Eastern Forms Center in Williston, VT, and the Western Forms
Center in Bell, CA, the Burlington and Laguna Niguel Administrative Centers, and selected
district offices. We divided the inspection into two phases. This report presents the
results of the first phase, which assesses the management controls over the N-550s at the
two forms centers. A subsequent report will assess the management controls over the N-550s
at the district offices.
During our review period, June 1, 1995, through March 31, 1997, the Bureau of Engraving
and Printing shipped 2.8 million N-550s to the forms centers. We verified that the forms
centers received the 2.8 million N-550s. We also conducted a physical inventory of
certificates on-hand, and reviewed shipping documents from the forms centers and receiving
documents from INS field locations to determine whether the 2.8 million certificates were
accounted for properly.
The forms centers, on their own initiative, have created an electronic inventory
spreadsheet to record the receipts and issuances of N-550s. They no longer use the
cumbersome, manual record-keeping process required by INS procedures and used by most
field locations. Each forms center uses its own electronic spreadsheet to track its N-550
inventory. While this automation is a positive step, these electronic spreadsheets do not
create audit trails that will enable personnel to detect alterations in records made to
conceal theft, loss, or misuse of N-550s.
We found no evidence that physical inventories, used to verify the number of N-550s
on-hand and required by INS procedures, had been conducted since November 1993. In
addition, because of the lack of regular inventories and the forms centers' failure to
consistently follow established procedures to verify and reconcile shipments to INS field
locations, we do not have reasonable assurance that controls are in place to prevent loss,
theft, or misuse of N-550s.
We, therefore, recommend that the forms centers conduct immediate independent physical
inventories, and make necessary adjustments to inventory records. All adjusting entries,
including those for destruction of certificates, should be properly documented. We also
recommend that the forms centers conduct periodic physical inventories and reconcile all
shipments to INS field locations with signed receipts confirming those shipments. INS
should also establish procedures to ensure that only authorized personnel can request and
receive shipments of N-550s. In addition, any computer program used to track N-550
inventory should include an audit trail of all entries made to the system.
We sent copies of the draft report to your office on August 27, 1997, and requested
written comments on the findings and recommendations. Your October 8, 1997 response
addressed each of the five recommendations and specific findings.  We have attached
your response as Appendix I.
On the basis of your written comments, we made minor technical changes to specific
statements in our findings. We also consider all recommendations resolved but have kept
all of them open pending further action. Appendix II explains why the recommendations were
not closed and what action is needed.
Please respond to the open recommendations by May 1, 1998. Your response should provide
the additional information requested. If actions have not been completed, please provide
proposed completion dates. Guidance on report follow-up and resolution can be found in
Department of Justice Order 2900.10.
We appreciate the cooperation extended to our Inspections Division staff during the
review. If you have any suggestions how we might improve our review process, or if we can
provide you with additional information, please let us know.
Attachment
cc: Kathleen Stanley
Liaison
Immigration and Naturalization Service
Vickie L. Sloan
Director
Audit Liaison Office
INTRODUCTION
Background
The Certificate of Naturalization (N-550) is an individually numbered certificate
printed by the Bureau of Engraving and Printing (BEP) and issued by the Immigration and
Naturalization Service (INS) to qualified aliens. The N-550 is a valuable document because
it serves as evidence of United States citizenship and is needed to secure benefits in
addition to those granted to lawful permanent residents. Citizenship bestows the
privileges of voting, holding a United States passport, and participating in certain
federally-funded assistance programs such as food stamps and welfare.
INS designates the N-550 as a secure form and requires that it be properly safeguarded
and controlled. INS Administrative Manual (AM) Section 2117 provides the guidelines for
receipting, storing, issuing, inventorying, shipping, and destroying secure forms.
After determining the number of certificates needed for the district offices, INS
Headquarters places an order for N-550s with the BEP in Washington, DC. The BEP uses the
United States Postal Service (registered-return receipt mail) to ship blank N-550s, in
sealed boxes of 500 to a box, to the two INS forms centers. After receiving a signed
requisition (Form G-514) from INS field locations, the forms centers ship the certificates
to INS field locations by registered-return receipt mail (or United Parcel Service). The
forms centers consider the return receipt as proof of delivery of the shipment to the
field location. Also included in each shipment to a field location is a Report of Property
Shipped-Received (G-504), which should be signed by a district official and returned to
the forms center as proof that the actual contents of the shipment were received. At each
point in the handling and distribution of the N-550, accountable employees are required to
maintain a permanently bound log that shows receipts and issuances.
Inspection Methodology
Our review covered the period June 1, 1995, through March 31, 1997. During this period,
2.8 million N-550s were sent from the BEP to the forms centers. Our review methodology
included verifying whether all 2.8 million N-550s received by the forms centers during
this period were either shipped to INS field locations or remained on-hand at the centers.
We conducted physical inventories at both forms centers to verify entries to the inventory
records, and assessed the adequacy of management controls over the security of the N-550s.
We also checked shipping records and signed confirmations of receipt to ensure that
shipments of the N-550s to the INS field locations were properly sent by the forms centers
and subsequently received in INS field offices.
RESULTS OF THE INSPECTION
The 2.8 million N-550s shipped by BEP during the period June 1, 1995, through
March 31, 1997, were received by the forms centers. The storage facilities at the forms
centers were adequate to protect N-550s from theft. We verified most of the shipments of
N-550s from the forms centers and the subsequent receipt of those documents by INS field
locations. However, INS did not follow established internal management controls or
procedures, which could detect loss, theft, or misuse of documents. Weaknesses included:
no periodic independent physical inventories;
no physical inventory upon the change in document custodian at the Western Forms Center;
no assurance that authorized personnel from field locations requested and received the
N-550s;
and
no complete reconciliation of receipts to shipments of N-550s to field locations.
Periodic Inventories by Disinterested
Officials Were Not Conducted
The forms centers have not conducted periodic physical inventories to verify the number
of N-550s on-hand since at least November 1993. AM Section 2117 requires a biweekly
inventory by employees other than those who are designated accountable, and a record of
the inventory to be entered in the log book. Both of the forms centers' directors said the
biweekly requirement for inventories was too frequent and other work often precluded
conducting them as required.
The current Director of the Western Forms Center was assigned to the position in April
1995. No audit or physical inventory of the N-550s on-hand at the center was conducted
when he took control of the center from his predecessor. While the former director kept
the N-550 inventory records on an electronic spreadsheet, it was maintained in a manner
similar to the bound log books required by AM Section 2117. Because bound logs are kept
chronologically by date and issuances are not always made sequentially by certificate
number, it is very difficult to determine whether all the certificates in a series have
been issued.
We examined the inventory records at the Western Forms Center to determine whether
these records agreed with our physical inventory. We found no supporting documentation for
two entries on the inventory records. The most significant of the two entries, as
described below, relates to the possible destruction of 73,500 N-550s. The current
director has tried to locate supporting documentation for these entries to reconcile the
former director's inventory records, but has been unsuccessful.
In June 1993, the Western Forms Center recorded a shipment of 100,000  N-550s from
the BEP. Inventory records show shipments of 26,500 N-550s from this block of 100,000
certificates to INS field locations. The 26,500 N-550s were not issued sequentially, i.e.,
the serial numbers were dispersed among the entire block of 100,000 certificates.
Inventory records for this block of 100,000 certificates also show a July 1993 entry for
the destruction of 73,500 N-550s. However, certificate serial numbers were not identified
for the destruction entry and no supporting documentation for the destruction exists.(1) Moreover, there was no record to explain why these
certificates had to be destroyed.
The 73,500 certificates not accounted for in the block of 100,000 certificates is the
same as the number noted to have been destroyed. In order to determine whether these
unaccounted certificates were the ones that were destroyed, we checked 78 of these 73,500
certificate numbers through INS's Central Index System (CIS). Entries in CIS showed that
some of these 78 naturalization certificates were issued to aliens rather than destroyed.
Because none of the 100,000 certificates was on-hand during our physical inventory in
April 1997 and our sample showed that certificates were issued to aliens, we were unable
to determine what, if any, certificates were destroyed or if all certificates were issued.
Both forms centers maintained complete and accurate records of receipts and shipments
by certificate number since at least mid-1995. However, because there were no prior
physical inventories at the forms centers, we could not determine the number of N-550s
that should have been on hand at the forms centers before they received 2.8 million
certificates from the BEP and which would also have been available for issuance.
Biweekly inventories may be too frequent, costly, or inconvenient for the two forms
centers. However, periodic inventories must be conducted by disinterested persons to deter
and detect the loss, theft, or misuse of valuable naturalization certificates.
Additionally, physical inventories and reconciliations with inventory records definitely
must occur each time there is a change in accountable employees. Otherwise, responsibility
for discrepancies cannot be established.
The Forms Centers Had No Assurance That Field Personnel
Requesting N-550s Were Authorized To Make Such Requests
Anyone in an INS field location can request N-550s from the forms centers, accept
receipt of certificates in the mail room, or acknowledge the number of certificates
received. INS procedures do not restrict the field personnel authorized to perform these
duties, and the forms centers generally accepted all G-514s, return receipts, and G-504s
as valid. Both of the forms centers' directors said that at one time they had lists of
personnel authorized to handle the secure documents, but had discontinued their use. The
lists became cumbersome to use because field locations were constantly changing or moving
personnel within the office and not notifying the forms centers.
Without a management control such as a predetermined list, the possibility for
unauthorized access to N-550s increases. For example, someone at a district office could
use a false name to order one or more boxes (500 certificates to a box) of  N-550s.
That same person could then take delivery and receipt for the documents, signing for them
with the same or a different name. Theft of certificates in this manner might never be
detected.
Confirmation of Shipments to Field Offices and
Acknowledgement of Receipt of Certificates Were Not Always Received or Reconciled
The forms centers maintained files documenting shipments of N-550s to field locations.
The files generally consisted of the G-514, the G-504, and the signed return receipt from
the registered mail shipment.
The Western Forms Center had an accumulation of signed return receipts from the
registered mail shipments to field locations dating back to June 1995, but was not
matching them with the G-514 and G-504 in the files. Matching these receipts at the time
they are returned provides a quicker response time for the forms center to inquire about a
possible lost or misdirected shipment. The Director of the Western Forms Center recognized
the need to match the receipt to the G-514/G-504 and had already started the task when
informed of our visit. The Eastern Forms Center followed the procedure of matching the
return receipts to the G-514/G-504.
INS field locations were not always returning the signed copy of the G-504 to the forms
centers. In addition, neither forms center was consistently following-up with the field
locations to obtain the G-504. The signed G-504 provides the documentation that the field
location actually received the number of N-550s that were shipped. The return receipt from
the registered mail only indicates that a package was received, not what the contents of
the package were. We found a few instances where there was a difference in the number of
certificates reported as shipped from the forms centers and the number of certificates
reported as received on the signed G-504. Both forms centers' directors said they tried
diligently to follow-up to obtain the signed G-504s, but the large volume of work and
other duties often hampered their efforts.
Unless forms center personnel reconcile shipping invoices to the receipts from INS
field locations signed by persons authorized to receive a shipment, they cannot be assured
that all shipments were properly received, and cannot be assured that certificates have
not been lost or stolen.
Automated Record Keeping and Inventory Controls Need
Strengthening
The permanently bound log books, required by AM Section 2117 to maintain a continuing
record of receipts, issuances, and balances, are a time consuming and cumbersome method of
accounting for numbered certificates. This task is especially arduous when there is a
large volume of activity. The BEP ships relatively large blocks of sequentially numbered
certificates to the forms centers. A typical shipment from the BEP might contain 100,000
certificates. The forms centers send many smaller individual shipments to the INS field
locations and the certificates may not be issued by the forms centers in sequential order.
If certificates are not issued sequentially, it is very difficult to account for a box of
500 numbered certificates when, for example, the box could be part of an overall shipment
of 100,000 certificates (200 boxes).
To provide for easier record keeping and inventory control, both forms centers have
discontinued using bound log books in favor of an electronic spreadsheet that tracks
receipt and issuance by certificate numbers. Each forms center is using its own electronic
spreadsheet for record keeping and inventory control. While both forms centers' directors
assured us that approval was given for the departure from the record keeping and inventory
practices required in AM Section 2117, we could not find any formal documentation
authorizing it.
We found that the electronic spreadsheet at the forms centers simplifies recording and
tracking the receipt and issuance of the N-550s. This spreadsheet is especially helpful in
dealing with the large number of certificates the forms centers are now handling. Each
shipment from the BEP was individually listed in the forms centers' spreadsheets and
showed the sequential list of certificate numbers contained in that shipment. The
spreadsheets also identified the shipments from the forms centers to INS field locations
including the date, amount, and serial number of the certificates in the shipments.
The major problem we identified with the electronic spreadsheets was the lack of an
audit trail. An audit trail shows any additions, deletions, or changes to a document.
Therefore, when any additions, deletions, or changes were made to the spreadsheets, there
was no permanent record to show how inventory records were adjusted.
While the bound log books provided an audit trail of additions, deletions, or changes,
the benefits of an automated system far outnumber the disadvantages as long as controls
can be built into the system. Officials in the Burlington Administrative Center stated
that computer software packages are available that contain the necessary built-in
controls. For example, verification by another person could be required before entries are
made part of the system, and afterwards, any changes to existing data in the system would
have to be by another employee such as the security officer.
Physical Security Should be Improved
The key lock at the Western Forms Center was not changed after the current director
assumed the position from his predecessor.
AM Section 2117 also states that employees accountable for secure forms will be
provided with sole access to appropriate storage facilities. Even though an accountable
employee has sole access to a storage facility, AM Section 2117 provides that the security
officer may maintain the combination or extra key to the storage facility to have access
if needed. Program managers at INS Headquarters and the Burlington and Laguna Niguel
Administrative Centers said they did not interpret the sole access requirement as being
applicable to the bulk supplies of secure forms at the forms centers. They said two or
more employees could be designated as being accountable for the bulk supply of secure
forms. They interpreted the requirement for sole access as only applying at the point of
issue, that is, to employees who prepare and issue secure forms to aliens. This
interpretation means that it is not possible to hold a single person accountable in the
case of theft or loss.
When accountability and responsibility for loss are shared by more than one person,
other management controls must be relied upon to a greater extent. The greater the number
of people who have access to N-550s, the stronger the other management controls should be.
INS needs to determine the best combination of management controls. For example, the
frequency of inventories should have some correlation with the number of people having
access, the volume of receipts and issues, the value of the item, and the level of
physical security controls.
Recommendations
INS should take immediate action to ensure that certificates of naturalization (N-550s)
are properly controlled. We, therefore, recommend that the Commissioner, Immigration and
Naturalization Service, direct that:
1. In order to establish a baseline for future accountability, an immediate physical
inventory and reconciliation of N-550s be conducted at the forms centers and any
adjustments to inventory records be fully documented.
2. Periodic inventories of N-550s be conducted by disinterested persons at the forms
centers at established intervals and any discrepancies be thoroughly investigated.
3. Only authorized personnel request and receive shipments of N-550s from the forms
centers.
4. Field locations send signed confirmation of the shipments they receive from the
forms centers and the forms centers follow-up on all confirmations not received.
5. An automated record keeping and inventory system for the forms centers be developed
that contains the necessary controls to prevent unauthorized record changes and to create
an audit trail of all record entries.
1. AM Section 2117 requires a destruction document that records the
date of destruction, the serial numbers of the documents destroyed, the method of
destruction, and signatures of both the destroyer of the documents and a witness.
APPENDIX I
Memorandum
Subject   DRAFT INSPECTION REPORT:
Date OCT 08, 1997
Inspection of the Controls Over
Certificates of Naturalization (Phase 1);
Draft
Report A-97-12
To  Mary W. Demory
Assistant Inspector General
for Inspections
Department of Justice
From  Office of the
Commissioner
Immigration and
Naturalization Service
Attached is the response from the Executive Associate Commissioner for Management
addressing your memorandum dated August 27. 1 have reviewed the response and concur with
the comments. The attached response does not concur with the fifth finding, "physical
security should be improved." This finding was discussed with your staff and your
staff agrees with our response.
If you have any questions, please contact Kathleen Stanley, Audit Liaison, at (202)
514-8800.
Doris Meissner
Commissioner
Attachment
cc: Vickie Sloan, DOJ Audit Liaison
Memorandum
Subject  DRAFT INSPECTION REPORT:
Date   SEP 17, 1997
Inspection of the Controls Over
Certificates of Naturalization (Phase 1);
Assignment Number A-97-12
To  Doris Meissner
From   Office of Management
Commissioner
We generally concur with the draft report on Phase I of the subject inspection,
although we cannot concur with some of the statements included on page 3 under the Results
of the Inspection heading.
Specifically, bullet one implies that there are no physical inventories conducted. The
Centers do conduct inventories, but have not complied with a regular schedule requirement
stipulated in existing policy.
Also, the third bullet item indicates that we have no reconciliation process for
receipts and shipping invoices. We do have a process in place which records shipments and
receipts. We understood that the inspectors took issue with the process in place, not that
there was no reconciliation at all.
INS agrees that the recommendations contained in the inspection report should be
addressed, and the Offices of Security and Files and Forms Management are already working
together to use these findings to improve the security of Certificates of Naturalization
and other highly sensitive forms.
FINDING: Periodic Inventories by Disinterested Officials Were
Not Conducted.
INS POSITION: Concur.
FINDING: The Forms Centers had no assurance that field
personnel requesting, N-550's were authorized to make such requests.
INS POSITION: Concur.
FINDING: Confirmation of shipments to Field Offices and
acknowledgment of
receipt of Certificates were not always received or reconciled.
INS POSITION: Concur.
FINDING: Automated record keeping and inventory controls need
strengthening.
INS POSITION: Concur. See Recommendation 5, below.
FINDING: Physical security should be improved.
INS POSITION: Non-concur with the statement that key locks on secure
forms storage areas have not been chanced annually as required by AM Section 2117. The
requirement in paragraph 7.b, Combination/Key Procedures, is as follows (emphasis added):
Combinations shall be changed annually or whenever ver there is
a change in accountable employee(s), or when it has been necessary to effect access to the
secure forms in the case of an unforeseen absence of the employee or when the combination
has otherwise been disclosed to unauthorized personnel. Locks
shall be re-keyed whenever a key has been lost, compromised, or upon change of accountable
employees.
Thus, the requirement is for combinations to be changed annually, not locks. Locks
require re-key only when a key has been lost, compromised, or upon change of accountable
employees.
Also, sole access requirements DO ONLY apply to issue
points, NOT bulk storage points, see paragraphs 7 a(l)
and 7a(2). However, we do agree that in such cases, other management controls are needed.
RECOMMENDATION 1: In order to establish a baseline for future
accountability, an immediate physical inventory and reconciliation of N-550S be conducted
at the forms centers and any adjustments to inventory records be fully documented.
INS RESPONSE: Concur. We believe that the inventory conducted by Forms
Center staff and in conjunction with the inspection team that produced the report
constitutes a baseline inventory from which to work.
RECOMMENDATION 2: Periodic inventories of N-550s be conducted by
disinterested persons at the forms centers at established intervals and any discrepancies
be thoroughly investigated,
INS RESPONSE: Concur. We acknowledge that the biweekly inventories
have not been conducted. We are reviewing this particular requirement with the intention
of modifying, it to make it more reasonable and more effective. Security officers will
be reminded to ensure complete physical inventories of all forms are completed upon
changes in custodians. We will develop new procedures to address this issue in the first
quarter of FY 1998.
RECOMMENDATION 3: Only authorized personnel request and receive
shipments of N-550's from the forms centers.
INS RESPONSE: Concur. The Offices of Files and Forms Management and
Security intend to develop during the first quarter of FY 1998 a procedure requiring a
counter-signature of a management official in field offices ordering, these certificates.
This authority will be delegated to a management position rather than an individual, which
should preclude the need to maintain lists of names who are authorized.
RECOMMENDATION 4: Field locations send signed confirmations of the
shipments they receive from the forms centers and the forms centers follow-up on all
confirmations not received.
INS RESPONSE: Concur.
RECOMMENDATION 5: An automated record keeping, and' inventory system
for the forms centers be developed that contains the necessary controls to prevent
unauthorized record changes and to create an audit trail of all record entries.
INS RESPONSE: Concur. The Forms Centers are currently using, an
electronic system to maintain inventory control. The inspection raised some questions that
need to be addressed as to the security of the access to that system. We will examine this
aspect of the system and modify it appropriately as soon as possible.
In addition, the Office of Security is drafting a policy change to require electronic
inventory control systems Service wide. A working group consisting of representatives from
the Headquarters, Office of Security and Office of Files and Forms Management, will be
working with field personnel to create an electronic record of receipts, issuance, and
balances that provides an effective inventory control system with adequate audit trail. A
prototype system will be tested at a selected field site within six months. The system
will be implemented Service wide after testing and necessary modifications approximately
12 months later.
If you have any questions, please contact Scott 0. Hastings, Director, Office of Files
and Forms Management, at (202) 514-2989.
George H. Bohlinger, III
Executive Associate Commissioner
APPENDIX II
OFFICE OF THE INSPECTOR GENERAL'S ANALYSIS
OF MANAGEMENT'S RESPONSE
Based on the comments from INS managers, we made some minor technical changes to the
final report addressing INS' concerns about our summary statements on conducting physical
inventories and reconciling receipts to shipments of certificates to field locations, and
our finding on physical security.
The INS response states that the forms centers conduct physical inventories, but not as
frequently as required. We found no documentation that inventories of N-550s were
conducted with any regularity by either forms center. The most recent evidence of any
physical inventory was dated November 1993. More importantly, however, the physical
inventories must be conducted by an independent person not accountable for the
certificates, as required by AM Section 2117. Our change to the summary statement on page
3 of the report now reflects that independent physical inventories were not
conducted.
We acknowledge in the report that INS has a process for reconciling the receipt and
shipment of certificates. As pointed out in the report, the reconciliation process
actually involves two steps. The first step requires the verification that the shipment of
certificates actually arrives at the destination. The second step requires the
verification that the actual contents of the shipment are received. We found minimal
evidence that either of these steps was routinely completed. We clarified our summary
statement on page 3 of the report to reflect that there were no complete
reconciliations of receipts to shipments of certificates to field locations.
We agree with INS that key locks do not have to be changed annually as do combination
locks. Therefore, we have deleted this statement in the physical security section of the
report.
Recommendation Number:
1. Resolved-Open. The OIG agrees that the inventories conducted on-site at the
forms centers constitute a useable baseline inventory from which to start the
reconciliation process. While we physically counted all N-550s on-hand at the forms
centers during our visit, we only checked receipts and issuances dating back to June
1995--the initial time period covered by our review. According to records at the forms
centers, physical inventories were last taken in November 1993. Considering the length of
time since the most recent inventories and the significant unexplained entries in the
Western Forms Center's records, the current physical counts of N-550s need to be
reconciled to the previous 1993 inventory records. Therefore, this recommendation will
remain open until we receive confirmation that the physical inventories have been
reconciled back to the last official inventory and any corrections or adjustments have
been documented.
2. Resolved-Open. The OIG agrees with the planned action to review the
requirement of biweekly inventories for the forms centers to consider changes that would
make it more reasonable and effective. This recommendation will remain open until we
receive the new procedures that address this issue.
3. Resolved-Open. The OIG agrees with the planned action to develop a procedure
that requires a counter-signature of a management official in the field offices when
ordering certificates. We believe this new procedure should also include a provision for
the actual receipt of certificates in field offices. Therefore, this recommendation will
remain open until we receive a copy of the new procedure.
4. Resolved-Open. INS concurred with the recommendation, but did not state how
the recommendation will be implemented. Therefore, this recommendation will remain open
until we receive documentation stating how field locations will be required to send
confirmations of the shipments they receive from forms centers, and how the forms centers
will follow-up on all confirmations not received.
5. Resolved-Open. The OIG agrees with the planned action to examine and modify
the electronic system now used in the forms centers to ensure security issues are
addressed, and the future plans to develop an electronic inventory control system
INS-wide. This recommendation will remain open until we receive confirmation on how the
electronic system at the forms centers has been modified to prevent unauthorized record
changes and to create an audit trail of all record entries.
#####